U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Trump v. Sierra Club, No. 20-138

Dear Mr. Harris:
We write in regards to respondent California’s request, filed on September 1, 2020, for an
eight-day extension of the time within which to file a brief in opposition in the above-captioned
case. If California’s request is granted, the government’s petition for a writ of certiorari
presumably would not be distributed in time for the Court’s consideration at its first conference of
the Term, on September 29, 2020, which in turn would make it difficult, absent expedited merits
briefing, for the Court to hear argument in this matter (if the petition is granted) at the Court’s
January 2021 session. The government had previously identified the January 2021 session as the
earliest practical opportunity for argument. Under the particular circumstances of these
proceedings, we respectfully submit that California’s request for additional time is unwarranted,
although we ultimately defer to this Court’s judgment.
The government filed its petition in this matter on August 7, 2020. The petition, filed
pursuant to Rule 12.4 of the Rules of this Court, seeks review of two related Ninth Circuit decisions
concerning actions taken by the Acting Secretary of Defense to transfer funds between
appropriations accounts as part of the government’s broader efforts to construct fencing along the
southern border of the United States: Sierra Club v. Trump, 963 F.3d 874 (2020) (Pet. App. 1a77a), and California v. Trump, 963 F.3d 926 (2020) (Pet. App. 78a-173a). The court of appeals
entered judgment in both cases on June 26, 2020. A certiorari petition would have been timely if
filed on or before November 23, 2020, but the government instead expedited its filing in order to
permit the Court to consider the petition at the Court’s first conference following the summer
recess, on September 29, 2020.
Any brief in opposition is presently due on or before September 8, 2020. On September 1,
2020, respondent California requested an eight-day extension of that deadline, to and including
September 16, 2020. If California’s request is granted, it appears that the earliest date on which
the petition could be distributed in the ordinary course would be September 23, 2020, for
consideration at the Court’s conference of October 9, 2020. As noted above, were the Court to
grant the petition at its October 9 conference, it would be difficult for the Court to set the case for
argument in the January sitting without expediting the merits briefing schedule.

California states in its September 1 letter that additional time is necessary in order for
California to have an opportunity to respond to two amicus curiae briefs that may be filed on or
around September 8. The government has received requests for consent to file amicus briefs from
four parties: the U.S. House of Representatives (which indicated that it plans to oppose the
petition); the Honorable Andy Barr, a Member of the U.S. House of Representatives; the Landmark
Legal Foundation; and the American Center for Law and Justice. All of those parties already
participated in the proceedings in the Ninth Circuit (although Landmark Legal Foundation filed a
brief on behalf of other individuals and groups rather than in its own right, see C.A. Doc. 103).
In addition, this Court has already received extensive prior briefing—including from
respondent California itself—about whether the questions presented in the petition warrant the
grant of certiorari. That issue was previously litigated in connection with the government’s
application for a stay of a nationwide injunction issued by the district court in Sierra Club. See
19A60 Gov’t Stay Appl. 19-34 (July 12, 2019); 19A60 Sierra Club Stay Opp. 15-41 (July 19,
2019). Respondent California participated in those proceedings as an amicus curiae, opposing the
government’s stay application. See 19A60 California Br. 3-15 (July 19, 2019). On July 26, 2019,
this Court granted the government’s application for a stay. 140 S. Ct. 1. The Court also recently
received additional briefing about certiorari in connection with respondent Sierra Club’s July 22,
2020 motion to lift the stay, which the Court denied.
Respondent Sierra Club asserted in its motion to lift the stay that ongoing construction
activities at the southern border are causing irreparable harm. See 19A60 Sierra Club Mot. to Lift
Stay 4, 20 (July 22, 2020). The government strenuously disputes that assertion. Nonetheless, it is
notable that respondent Sierra Club has not requested an extension of the time to file its own brief
in opposition and has not joined California’s request.
In light of the foregoing, we believe that California’s request for additional time to respond
to amicus briefing is unwarranted, although we ultimately defer to this Court’s judgment.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

2

20-0138
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES, ET AL.,
SIERRA CLUB, ET AL.

BENJAMIN DANIEL BATTLES
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
109 STATE STREET
MONTPELIER , VT 05609-1001
JACOB CAMPION
JULIANNA F. PASSE
445 MINNESOTA STREET
ST. PAUL, MN 55101
651-757-1459
JACOB.CAMPION@AG.STATE.MN.US
MARGARET Q. CHAPPLE
DEPUTY ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL CONNECTICUT
55 ELM STREET
PO BOX 120
HARTFORD , CT 06106
JEFFREY PAUL DUNLAP
OFFICE OF THE ATTORNEY GENERAL
20 ST. PAUL PLACE
FLOOR 20
BALTIMORE, MD 21202

JEREMY M. FEIGENBAUM
OFFICE OF THE NJ ATTORNEY GENERAL
25 MARKET ST.
FIRST FLOOR
TRENTON, NJ 08625-0080
609-376-2690
JEREMY.FEIGENBAUM@NJOAG.GOV
SUSAN P. HERMAN
DEPUTY ATTORNEY GENERAL
STATE OF MAINE
6 STATE HOUSE STATION
AUGUSTA, GA 04333
207-626-8814
SUSAN.HERMAN@MAINE.GOV
GABE JOHNSON-GARP
WISCONSIN DEPARTMENT O JUSTICE
17 WEST MAIN STREET
MADISON, WI 53707
LAWRENCE J. JOSEPH
AC - U.S. REPRESENTATIVE ANDY BARR (KY6)
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
MICHELLE SHANE KALLEN
OFFICE OF THE ATTORNEY GENERAL
202 NORTH NINTH STREET
RICHMOND, VA 23219

DROR LADIN
ACLU FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2500
DLADIN@ACLU.ORG
DAVID JAY LYONS
OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF JUSTICE
820 N. FRENCH STREET
WILMINGTON, DE 19801
TANIA MAESTAS
DEPUTY ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
PO DRAWER 1508
SANTA FE, NM 87504-1508
JONA J. MAUKONEN
OREGON DEPARTMENT OF JUSTICE
1162 COURT STREET, NW
SALEM, OR 97301
ROBERT TADAO NAKATSUJI
OFFICE OF THE HAWAII ATTORNEY
GENERAL
425 QUEEN STREET
HONOLULU, HI 96813
MICHAEL J. O'NEILL
LANDMARK LEGAL FOUNDATION
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
816-931-5559
MIKE@LANDMARKLEGAL.ORG

ERIC R. OLSON
OFFICE OF THE ATTORNEY GENERAL
1300 BROADWAY
10TH FLOOR
DENVER, CA 80203
720-508-6548
ERIC.OLSON@COAG.GOV
BERNARD ERIC RESTUCCIA
ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
670 LAW BUILDING
525 W. OTTAWA
LANSING, MI 48913
CALEB RUSH
OFFICE OF THE ATTORNEY GENERAL
100 WEST RANDOLPH STREET
12TH FLOOR
CHICAGO, IL 60601
HEIDI PARRY STERN
OFFICE OF THE NEVADA ATTORNEY
GENERAL (LAD VEGAS)
555 EAST WASHINGTON AVENUE
LAS VEGAS, NV 89101
JUSTIN JAMES SULLIVAN
SPECIAL ASSISTANT ATTORNEY GENERAL
OFFICE OF THE ATTORNEY GENERAL
150 SOUTH MAIN STREET
PROVIDENCE, RI 02903
ABIGAIL TAYLOR
OFFICE OF THE MASSACHUSETTS
ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MA 02108

STEVEN C. WU
NEW YORK STATE OFFICE OF THE
ATTORNEY GENERAL
28 LIBERTY STREET
23RD FLOOR
NEW YORK, NY 10005
JAMES FRED ZAHRADKA, III
DEPUTY ATTORNEY GENERAL
1515 CLAY STREET
SUITE 2000
OAKLAND, CA 94612
JAMES.ZAHRADKA@DOJ.CA.GOV

